OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/GHANA’S
EFFORTS TO INTEGRATE
GENDER INTO HIV/AIDS
ACTIVITIES

AUDIT REPORT NO. 7-641-12-006-P
May 4, 2012




DAKAR, SENEGAL 

Office of Inspector General




May 4, 2012

MEMORANDUM

TO:      	         USAID/Ghana Mission Director, Cheryl Anderson

FROM: 	            Regional Inspector General, Gerard Custer /s/

SUBJECT:	          Audit of USAID/Ghana’s Efforts to Integrate Gender into HIV/AIDS Activities
                   (Report No. 7-641-12-006-P)

This memorandum transmits our final report on the subject audit. We have carefully considered
your comments on the draft report and have included them in their entirety in Appendix II.

The report contains eight recommendations to strengthen USAID/Ghana’s efforts to integrate
gender into its HIV/AIDS activities. With the information you provided in your response to the
draft report, we determined that final action has been taken on Recommendation 1 and is
closed on issuance of this report.        A management decision has been reached on
Recommendations 2, 3, 4, 5, 6, 7 and 8. Please provide the Audit Performance and
Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final
actions to close the seven open recommendations.

I appreciate the cooperation and courtesy you extended to my staff during the audit.




U.S. Agency for International Development
Ngor Diarama
Petit Ngor
BP 49
Dakar, Senegal
www.usaid.gov/oig
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings............................................................................................................................. 5 


     Targets for Partner’s Gender-Based Violence Interventions Were Too Low .......................... 5 


     Partner Did Not Give Subpartners Enough Training or Information ........................................ 6 


     Partner Used Inaccurate or Unverifiable Data for Gender-Related Activities ......................... 9 


     Branding and Marking Requirements Were Not Followed .................................................... 11 


Evaluation of Management Comments................................................................................... 13 


Appendix I—Scope and Methodology .................................................................................... 15 


Appendix II—Management Comments ................................................................................... 17 





Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
FHI             Family Health International 360
FSW             female sex worker
FY              fiscal year
GBV             gender-based violence
M&E             monitoring and evaluation
MSM             men who have sex with men
PEPFAR          President’s Emergency Plan for AIDS Relief
PLHIV           people living with HIV
SHARPER         Strengthening HIV/AIDS Response Partnerships with Evidence-Based Results
STI             sexually transmitted infections
SUMMARY OF RESULTS 

To assist Ghana—and other countries throughout the world—in reducing the HIV/AIDS infection
rate, USAID and the President’s Emergency Plan for AIDS Relief (PEPFAR) support programs
that integrate gender into HIV/AIDS activities. USAID recognized the need to focus its efforts on
certain groups of people who are especially vulnerable to HIV infection: female sex workers
(FSWs), men who have sex with men (MSM),1 and, in Ghana, kayayei,2 young women from the
north who migrate to cities for work.

These three groups are affected by gender norms and inequalities, which make them more
vulnerable to HIV and inhibit their ability to get support and treatment. These norms are the
sociocultural attributes that affect how people define their roles, behave, and interact with each
other. For example, in some countries gender norms may prevent women and girls from being
able to decide if, when, and with whom they have sexual relations and may encourage men to
engage in risky behavior or forego health care.

The Government of Ghana acknowledged the role that gender norms and the inequalities that
often stem from them play in the spread of the HIV/AIDS epidemic. In its National Strategic
Plan for the Most-At-Risk Populations for 2011-2015, the Ghana AIDS Commission emphasizes
gender equity and prevention of GBV, in particular for FSWs and MSM.

USAID updated gender programming requirements so that gender is taken into account when
planning, monitoring, and evaluating any projects and activities. PEPFAR also has revised its
requirements to ensure that gender is well integrated into HIV/AIDS activities

During fiscal year (FY) 2011, USAID/Ghana obligated $10.5 million and disbursed $11 million
for HIV/AIDS activities;3 $7.6 million of that amount was obligated and $5.6 million was
disbursed under the Strengthening HIV/AIDS Response Partnerships with Evidence-Based
Results (SHARPER) project, which was led by Family Health International 360 (FHI4).

The objective of this audit was to determine whether USAID/Ghana was achieving its goal of
integrating gender into HIV/AIDS activities supported by PEPFAR. To evaluate the mission’s
efforts, the audit reviewed two projects that address gender.

The audit found that the mission is not only successfully integrating gender into its HIV/AIDS
activities, but also has expanded gender-related activities through FHI and piloted a new project
on gender issues with Marie Stopes International. The following table describes the two
projects reviewed.




1
  In Ghana, between 30 and 45 percent of FSWs and 26 percent of MSM are HIV positive. 

2
  Kayayei is a Ghanaian term for a porter who carries baggage or items on his or her head. Kayayei are 

vulnerable to unsafe living conditions, sexual exploitation, and violence that leave them susceptible to 

contracting HIV/AIDS and other sexually transmitted diseases.

3
  Funds disbursed for FY 2011 were mostly obligated before September 30, 2010.

4
  As of July 6, 2011, FHI changed its name to FHI 360. For the sake of this report, we will refer to the 

organization as FHI. 


                                                                                                         1
                                            Audited Projects

        Project              Dates            Type and           Partner               Objective
                                             Amount of
                                              Award ($)
Increasing             November 2011 to     Cooperative    Marie Stopes 
       To increase access to
Access to Sexual          June 2013         agreement      International 
      and knowledge of sexual
and Reproductive                            through                             and reproductive health
Health Services                             field                               services among kayayei,
and Reducing                                support                             and to reduce gender-
Gender-Based                                550,000                             based violence.
Violence (GBV)
Within the
Kayayei
Community
SHARPER                 February 2010 to    Cost-plus-     Consortium led by    To contribute to Ghana’s
                        September 2013      fixed-fee      FHI, in              national goal of reducing
                                            task order     collaboration with   new infections by
                                            22.4 million   Opportunities        30 percent by 2013 by
                                                           Industrialization    reducing HIV/AIDS
                                                           Centers              transmission.
                                                           International,
                                                           Catholic Relief
                                                           Services, Social
                                                           Impact, and EXP
                                                           Momentum

FHI’s SHARPER project has been extremely proactive in integrating gender into its
programming. Although GBV was not part of the original scope of work, FHI took the initiative to
integrate it into the project because GBV was listed as a cross-cutting problem in the contract
and because the organization realized it was an important subject. FHI and USAID/Ghana
originally agreed that SHARPER would train women living with HIV to take leadership roles in
HIV support groups so that they could create awareness of and provide skills for mitigating
GBV.5 However, since all of the most-at-risk-populations that FHI works with are vulnerable to
GBV, FHI expanded its gender activities to include GBV interventions for all subpopulations
reached: people living with HIV (PLHIV), MSM, FSWs, and their nonpaying partners.

Marie Stopes International’s project is a pilot for gender-specific programming with funding from
the PEPFAR Gender Challenge Fund. It focuses on increasing the kayayei community’s access
to sexual and reproductive health services and reducing GBV against them. Though little is
known about how prevalent HIV is in this subpopulation, Marie Stopes International’s
preliminary research suggests that kayayei are vulnerable to GBV and to contracting HIV and
sexually transmitted infections (STIs) because of their living conditions.

At a broader level, the mission has taken steps to address gender issues in all of its HIV/AIDS
programs. In December 2011, the mission issued a gender assessment of Ghana, to
understand the different needs and interests of men and women, as well as the constraints they
faced when engaging with and benefitting from development programs. The mission also
developed a project monitoring checklist to make sure that staff covers gender integration when
assessing ongoing programs.


5
    This is from the activity description in USAID’s proposal to the PEPFAR Gender Challenge Fund.

                                                                                                        2
Despite the positive findings noted above, the audit identified weaknesses in the design,
implementation, monitoring and evaluation, and public awareness of U.S. efforts of certain
gender-related activities. Improvements are needed to address the following issues.

•	 FHI’s targets for GBV interventions were overly conservative (page 5).

•	 FHI did not give subpartners enough training or information. Subpartners were not trained
   to manage gender-related activities adequately (page 7). Subpartners’ action plans to
   integrate gender into project activities were developed poorly (page 7). A subpartner did not
   educate FSWs on GBV (page 8). A subpartner was unaware of the legal resources
   available to beneficiaries who needed protection (page 8).

•	 Subpartners’ reported results for gender-related activities were not always accurate or
   verifiable (page 9).

•	 Branding and marking requirements were not followed (page 11).

To strengthen USAID/Ghana’s gender integration efforts and gender-related activities, the audit
recommends that the mission:

1. 	Work with FHI to review and revise its targets in writing for gender-based violence
    interventions to include all targeted subpopulations (page 6).

2. 	 Require FHI to implement a plan to provide additional training for subpartners on gender,
     gender mainstreaming, and gender-based violence and to improve subpartners’ training of
     colleagues and peer educators (page 8).

3. 	 Require FHI to work with its subpartners to develop and implement gender action plans that
     are measurable and doable (page 8).

4. 	 Require FHI to implement a plan to reach all beneficiaries who visit the drop-in centers with
     gender-based violence interventions (page 9).

5. 	Require FHI to implement a plan to make subpartners aware of the available support
    services, including the M-Friends network, and inform subpartners when these services
    change (page 9).

6. 	 Require FHI to implement a plan to train subpartners on how to properly define, measure,
     and report on the indicators (page 11).

7. 	Require FHI to distribute updated data collection and reporting tools to subpartners,
    document the training of subpartners to use these tools properly, require their use, and
    create a centralized database of project results and beneficiaries (page 11).

8. 	 Require FHI to document the education of its subpartners on USAID branding and marking
     requirements and require adherence to these guidelines on a case-by-case basis (page 12).

Detailed findings appear in the following section. Appendix I contains information on the
audit scope and methodology. Appendix II contains management’s comments in their



                                                                                                3
entirety, and our evaluation of management’s comments is included on page 13 of the
report.




                                                                                      4
AUDIT FINDINGS 

Targets for Partner’s
Gender-Based Violence
Interventions Were Too Low
According to USAID’s Project Design Guidance, “Sound project design requires that M&E
[monitoring and evaluation] be built into the design from the beginning. Defining baselines,
targets, and implementing systems to routinely collect and analyze data, as well as planning for
necessary evaluation and decision points, are all essential to keeping a project on track and
communicating project performance.”

USAID’s Automated Directives System (ADS) 203.3.4.56 states:

        Targets should be ambitious, but achievable given USAID (and other donor)
        inputs. Assistance Objective Teams should be willing to be held accountable for
        achieving their targets. On the other hand, targets that are set too low are also
        not useful for management and reporting purposes.

Additionally, ADS 200.3.2.2 states:

        USAID results-focused programming systems are intended to help ensure that
        the Agency’s programs and priorities are as responsive as possible to customer
        needs. USAID seeks to identify who its customers are and to secure their
        participation in order to better target its project approaches and to focus its efforts
        and resources on the most productive tasks.

This helps the Agency frame program strategies and design specific interventions.

Interventions aimed at reducing violence and coercion is one of the five cross-cutting areas of
PEPFAR’s gender strategic plan. With extra funding from the PEPFAR Gender Challenge
Fund, FHI was to train women living with HIV to become leaders of PLHIV support groups to
create awareness of and provide skills for mitigating GBV.7 However, FHI expanded its scope
for this activity to include GBV interventions for all subpopulations reached—PLHIV, MSM,
FSWs, and their nonpaying partners—because it was listed as a cross-cutting theme in its
contract and because all of the targeted subpopulations are vulnerable or exposed to GBV. For
example, a subpartner reported that PLHIV hesitate to disclose their HIV status to their partners
for fear of being abused. MSM in Ghana are subject to verbal harassment, violence, and even
criminal prosecution, and, according to peer educators, FSWs are unlikely to report cases of
abuse for fear of losing a client and being subject to violence, arrest, or other forms of
discrimination from the police.

However, FHI’s targets for its GBV interventions were overly conservative. In FY 2011, FHI
planned to reach 1,000 people with GBV interventions, but only 5 months afterward, it reported

6
  ADS 203, “Assessing and Learning,” was revised on February 10, 2012. The citations in this report refer 

to the previous version of ADS, in effect at the time of the audit.

7
  This is from the activity description in USAID’s proposal to the PEPFAR Gender Challenge Fund.


                                                                                                        5
reaching 5,190 (although that figure’s accuracy is questioned later in this report). In FY 2012,
FHI has a target of reaching 2,000 people, but the target is too low given the performance in
FY 2011.

These targets were based on FHI’s own conservative considerations. USAID/Ghana did not
provide input in setting the targets but approved them based on the notion that the activity was
only targeting women living with HIV to build their leadership skills, as was originally planned.
USAID/Ghana did not formally approve the expansion of FHI’s GBV interventions and stated
that it neglected to set a target to reflect the revised scope because increasing these activities
was never planned and was likely to cost more money. The mission stated that only $180,000
was obligated for this activity, which it believed was not sufficient to cover an expansion in
scope to include other subpopulations.

Nonetheless, FHI reached 4,000 more people than it had targeted in only 5 months and without
an increase in funding. FHI also states in its draft gender strategy that it plans to target most-at-
risk-populations (FSW and MSM) and PLHIV with GBV interventions and makes no reference to
it being contingent upon the receipt of additional funds.

Targets that are set too low may not provide valuable information to improve program activities
or to evaluate partner performance. Given the need among all subpopulations for GBV
interventions, we recommend that USAID and FHI further support, strengthen, and expand their
GBV efforts. To address this issue, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Ghana work with FHI to review and
   revise its targets in writing for gender-based violence interventions to include all targeted
   subpopulations.

Partner Did Not Give Subpartners
Enough Training or Information
Ghana’s National HIV/AIDS Strategic Plan for Most-at-Risk-Populations for 2011-2015 seeks an
end to HIV/AIDS stigma and discrimination and highlights the importance of mainstreaming
gender in HIV/AIDS interventions. According to the United Nations, gender mainstreaming is

       the process of assessing the implications for women and men of any planned
       action, including legislation, policies or programmes, in all areas and at all levels.
       It is a strategy for making women’s as well as men’s concerns and experiences
       an integral dimension of the design, implementation, monitoring and evaluation of
       policies and programmes in all political, economic and societal spheres so that
       women and men benefit equally and inequality is not perpetuated.

FHI’s draft gender strategy proposes interventions that align with the Ghanaian Government’s
efforts and that promote equitable gender norms and related behaviors to reduce the risk of HIV
and STIs. FHI’s task order states that the contractor “shall fully integrate gender consideration
into program interventions.” It also states, “Activities under this task order shall address the
issue of gender-based violence and exploitation of women and girls by sex trafficking, rape and
sexual abuse . . .” and should take into account PEPFAR’s emphasis on increasing women’s
legal protection. Some of the ways in which FHI plans to accomplish these objectives are by
(1) building subpartners’ capacity to integrate gender mainstreaming strategies into their work,
to implement gender-related activities, and to ensure that services are good and timely,

                                                                                                   6
(2) developing gender action plans to guide subpartners’ efforts to strengthen their institutional
capacity to implement gender-related activities, (3) educating FSWs on GBV, and (4) creating
an M-Friends8 network to provide legal support and protection to most-at-risk-populations.

However, there were weaknesses with the implementation of these four activities, as explained
below.

Training for Subpartners Was Inadequate. In November 2011, FHI organized a 4-day
training session on gender and GBV to help subpartners integrate gender into their programs.
The training introduced subpartners’ gender specialists to the concept of gender, the impact of
gender on HIV, gender integration in HIV/AIDS activities, and GBV. After the training, the
gender specialists were supposed to return to their organizations and train colleagues and peer
educators.

However, some subpartner staff members had difficulty articulating an accurate definition of
gender. Some defined it as “male versus female” or confused it with GBV. Subpartners made
no distinction between gender activities (that raise awareness of the key concepts of gender,
the impact of gender on HIV, gender integration in HIV/AIDS activities, and stigma and
discrimination) and GBV interventions (that identify the types of GBV experienced by the most-
at-risk-populations and developing strategies to addressing GBV). Subpartners also had trouble
with the concept of gender mainstreaming and made no reference to the process of assessing
the implications that any project activities had for women and men.

Though the subpartners we met confirmed that the gender specialists had conducted training for
the organization, the subpartners did not understand how to use what they had learned. This
occurred because the training was inadequate. In addition, FHI did not provide subpartners with
tools they needed to standardize this training; gender specialists received a 148-page manual at
the November training, but not other material they needed to help them train others. As a result,
subpartner staff needed additional training to ensure effective project implementation.

Subpartners’ Gender Action Plans Were Developed Poorly. Following the November 2011
gender training, FHI required subpartners to develop action plans for integrating gender into
their project activities.

However, these plans were developed poorly. The ones we reviewed were unclear about how
tasks would be implemented or how efforts would be monitored or evaluated. For example, to
address one subpartner’s limited knowledge of gender awareness, the subpartner planned to
“strengthen the existing gender sensitive norms among staff through staff review meetings,”
without specifying how that would be accomplished. The plan did not list concrete activities that
would be implemented or include milestones. The plan specified that this activity was to be
done within a month of the training, but the subpartner had not conducted any formal training or
planned any activities at the time of the audit (February 2012). Another activity listed in the
subpartner’s plan was to “empower the target group to resist any form of GBV against them
when they can,” but the plan did not specify how it would do so. The subpartner admitted that
he did not know exactly what activities would be performed because he did not fully understand
the key gender concepts or how to integrate gender into project activities. The subpartner
stated that more assistance was needed from FHI to understand how to manage this aspect of

8
 FHI’s M-Friends network disseminates information about legal rights and protection to FSWs, MSM, and
PLHIV. M-Friends are individuals who support the most-at-risk-populations and who are in positions to
help them in a crisis. (M stands for most-at-risk-population).

                                                                                                   7
the project.

FHI clarified that these action plans were works in progress and had not been approved at the
time of the review. However, subpartners needed more guidance on how to develop and
implement these action plans and more training to understand the subject matter. Given the
way in which subpartners’ gender action plans were structured, it was not clear what activities
would be performed or when, and subpartners’ performance could not be objectively monitored
or evaluated. It is also debatable how effective and useful these gender action plans are when
subpartners do not fully grasp the key gender concepts.

FSWs Were Not Educated on GBV. FHI works with its subpartners to educate FSWs on how
to reduce and mitigate GBV, be aware of legal and civil rights, and recognize the support
services available to victims of GBV. However, a subpartner in the town of Kumasi did not
educate FSWs on GBV. The subpartner received funds from FHI to educate nonpaying
partners of FSWs on HIV, STIs and GBV and from another donor to educate FSWs on HIV and
STIs, but not GBV. Consequently, GBV education was not available to FSWs – a group that
could benefit greatly from this education. The subpartner stated that this was necessary in
order to maintain separate records of the funds of the two donors. Notwithstanding, FHI funds
a drop-in center where FSWs are screened and tested for STIs and HIV. The drop-in center
could be used to educate FSWs on GBV. This missed opportunity to inform FSWs about GBV,
their legal rights, and support services could be rectified by utilizing the resources of the drop-in
center.

Subpartner Was Unaware of Support Services for Beneficiaries. As part of FHI’s efforts to
provide legal rights and protection to FSWs, MSM, and PLHIV, it established the M-Friends
network to respond to violence and human rights abuses. M-Friends usually are lawyers, police
officers, religious figures, or district or regional assembly leaders. An M-Friend in the police
force is an especially valuable resource for FSWs and MSM; FSWs hesitate to go to the police
otherwise if they are raped because prostitution is illegal in Ghana and because they fear further
abuse, and MSM hesitate because homosexuality is not accepted in Ghanaian culture.

FHI reported having five M-Friends in the Kumasi police force, but staff and peer educators for a
subpartner based there were unaware of this network and believed the nearest M-Friend police
officer was an hour and a half away. FHI did not inform subpartners of the complete M-Friend
network or ensure that this information was shared among staff members and peer educators.
As a result, some beneficiaries may not have had access to the M-Friend network’s legal and
protective services.

To address these issues, we make the following recommendations.

   Recommendation 2. We recommend that USAID/Ghana require FHI to develop and
   implement a plan to provide additional training for subpartners on gender, gender
   mainstreaming, and gender-based violence and to improve subpartners’ training of
   colleagues and peer educators.

   Recommendation 3. We recommend that USAID/Ghana require FHI to work with its
   subpartners to develop and implement gender action plans that are measurable and
   doable.




                                                                                                   8
   Recommendation 4. We recommend that USAID/Ghana require FHI to develop and
   implement a plan to reach all beneficiaries who visit the drop-in centers with gender-
   based violence interventions.

   Recommendation 5. We recommend that USAID/Ghana require FHI to develop and
   implement a plan to make subpartners aware of available support services, including the
   M-Friends network, and inform subpartners when these services change.

Partner Used Inaccurate or
Unverifiable Data for Gender-Related
Activities

According to USAID’s Program Cycle Overview, M&E is an important part of the program cycle
to help determine whether projects are having the intended impact. To measure performance
effectively and make informed management decisions, missions must ensure that quality data
are collected and made available. USAID provides its assistance objective teams extensive
guidance to help them manage for improved results. Among this guidance is ADS 203.3.5.2,
which states that the USAID mission and assistance objective teams should be aware of the
strengths and weaknesses of their data and the extent to which the data’s integrity can be
trusted to influence management decisions. According to ADS 203.3.5, “Data Quality,”
performance data should meet quality standards for validity, integrity, precision, reliability, and
timeliness, and missions should ensure that data used are of sufficiently high quality to support
the appropriate level of management decisions. Additionally, ADS 203.3.3.1 states that the
description of data collection should be specific enough that an objective observer can
understand how the raw data are collected, compiled, analyzed, and reported.

Several of the results FHI and its subpartners reported for gender-related activities were
inaccurate or not verifiable as discussed below.

Reported Results Were Not Accurate. Despite FHI’s efforts to incorporate the indicator
“Number of people (FSW, nonpaying partners, MSM, PLHIV) reached by an individual, small
group or community-level intervention or service that explicitly addresses gender-based
violence and coercion related to HIV/AIDS,” subpartners were confused about how to measure
and define it. Some thought they were supposed to report on the number of people who had
experienced some form of GBV, instead of the number of people reached by interventions that
explicitly address GBV.

In November 2011, FHI explained this indicator to subpartner officials during a training session,
but the training was intended for and included only subpartners’ gender specialists, not their
M&E officers. FHI officials said they did not conduct a formal training for the M&E officers
because they considered the simple reporting guidance to be sufficient to enable subpartners to
collect, collate, and report on this indicator.

FHI realized that subpartners were confused after it completed a comprehensive data quality
assessment in December 2011. The assessment revealed that subpartners had overreported
results for GBV interventions by 6,816, decreasing the number of people reached from 12,006
to 5,190. FHI acknowledged that some subpartners’ understanding of the indicator was flawed
and that additional training was needed.


                                                                                                 9
Subpartners also have had difficulty understanding the other indicators on services provided to
MSM and FSWs. For the indicator “Number of FSWs/MSM reached with individual and/or small
group-level interventions that are based on evidence and/or meet the minimum standards,”
some did not understand how to measure and define the number of people reached. A
USAID/Washington PEPFAR M&E adviser confirmed that this is a common problem in all
countries because some partners struggle to understand how to count a person who has
received four kinds of information or services. Some partners may count this as one person
served, while others may count him or her as four.

In addition, according to FHI officials, these indicators measured only “new” people reached
during the course of the project. Once a beneficiary has been counted as having received a
service, any other service he or she gets for the remainder of the project will not be reported.
However, due to subpartners’ poor implementation of the unique code used to identify
beneficiaries (as explained below and on the next page) and the lack of a centralized database
to manage data, subpartners could not easily track whether someone had previously received
services. Because subpartners did not maintain a collective record of beneficiaries, some
subpartners would ask beneficiaries whether they had received services before to determine if
they should be counted as “new.” The lack of a centralized database makes it difficult to track
beneficiaries who have been previously reported or who have received services at a different
FHI-supported center. As a result, subpartners may be reporting results inaccurately.

FHI’s data quality assessment confirmed that subpartners’ results were inaccurate. The
assessment and auditor verifications showed that subpartners had overreported results by 24 to
131 percent for all four of the indicators audited for gender-related activities. Although FHI
officials said they revised subpartners’ data following the assessment, the audit team still noted
several inaccuracies with the revised data.

These problems occurred because subpartners did not understand how to properly define,
measure, and report on the indicators. FHI should have provided additional oversight and
monitoring after the indicators were introduced to help avoid confusion. For example, FHI
introduced the GBV indicator to subpartners in May 2011, but had not conducted formal training
for M&E officers on the indicator at the time of the audit (February 2012). Additionally, lack of a
centralized database and poor implementation of the unique code make it difficult to accurately
track and report on results.

Given the problems noted above, additional training is needed to eliminate the confusion that
still exists, and the data quality is questionable given that subpartners’ understanding of the
indicators was not consistent and that there was no centralized database to manage the data.
Without reliable data, the performance and impact of gender-related activities cannot be
measured, and programming decisions may not always be based on the best or most accurate
information.

Reported Results Could Not Be Verified. To ensure integrity, data should be verifiable.
However, auditors could not verify data for three of the four indicators tested. To protect the
identity and health information of program beneficiaries, USAID and FHI do not keep identifiable
data such as names, dates of birth, telephone numbers, or addresses. Instead, subpartners
assign beneficiaries a unique code to track program data. This system has been used
successfully in other countries.

Keeping personal information secure is of particular concern in Ghana where PLHIV, FSWs,
and MSM are often victims of stigma and discrimination and sometimes violence. FHI

                                                                                                10
introduced unique codes in Ghana a year ago, but the implementation has not been successful.
Subpartners have not been using the codes as required because the data collection sheets
were outdated and did not have a designated space in which staff could report the code.
Subpartners also did not manage data in a centralized database. Nearly all data collection was
done manually, making data management tedious and prone to human error. As a result, data
cannot be verified and runs the risk of being incorrectly reported.

The inability to verify data also means the data are more susceptible to fraud. First, since some
peer educators are paid based on the number of new beneficiaries they are able to reach, they
have an incentive to falsify data, especially if the data cannot be verified. Second, subpartners’
funding is tied to milestones. For each milestone, they are assigned specific targets for the
number of beneficiaries to be reached and receive funding only if they meet those targets.
Consequently, they have a financial incentive to falsify their data. The risk of fraud could be
mitigated by better use of the unique code and a centralized database.

To address these problems, we make the following recommendations.

   Recommendation 6. We recommend that USAID/Ghana require FHI to develop and
   implement a plan to train subpartners how to properly define, measure, and report on the
   indicators.

   Recommendation 7. We recommend that USAID/Ghana require FHI to distribute
   updated data collection and reporting tools to subpartners, document the training of
   subpartners to use these tools properly, require their use, and create a centralized
   database of project results and beneficiaries.

Branding and Marking Requirements
Were Not Followed
The last step in evaluating the project’s gender-related activities was to assess the public’s
awareness of USAID’s efforts. According to a Government Accountability Office (GAO) report
on foreign assistance, “The United States is one of the largest donors of foreign assistance to
countries around the world; however, many of the recipients of this aid are unaware that it is
provided by the United States.” Section 641 of USAID’s framework legislation, the Foreign
Assistance Act of 1961, codified as amended in 22 U.S.C. 2401, specifies that programs under
the act be identified appropriately overseas as “American aid.” Effective branding of USAID
projects is integral to the Agency’s mission to advance American interests, and ADS 320
requires that all foreign assistance be branded and marked.

During our fieldwork, however, we learned that FHI’s branding and marking efforts were not
effective. For example, beneficiaries we interviewed were excited about the program and its
benefits, but some were unable to identify USAID or the American people as the sponsors.
Some beneficiaries said program officials had not told them anything about the sponsors.
Additionally, signs at FHI and subpartner offices and service delivery sites were not branded
with appropriate USAID logos and markings.




                                                                                               11
  This subpartner’s office and drop-in center in Takoradi does not show USAID branding.
  (Photo by Office of Inspector General, January 31, 2012)

These omissions can be attributed to the lack of monitoring by USAID/Ghana and FHI
personnel to ensure adherence to the branding and marking requirements. Although FHI
officials informed us that all subpartners learned about the project’s branding and marking policy
at the start, one subpartner’s director informed us that she was not aware of branding
requirements, which is why she had not branded her activities.

Some projects that focus on MSM are considered exempt from the branding and marking
requirements due to security concerns. However, of the three subpartners that were audited,
the only one that was exempt from the requirements actually had the best branding. Thus FHI
should work with subpartners on a case-by-case basis to determine the appropriate branding
and marking requirements.

By not following branding and marking requirements, the mission and FHI risk not furthering
U.S. foreign policy in Ghana. Neither the U.S. Government nor the American people will receive
credit for providing public resources in Ghana. To avoid those risks, this audit makes the
following recommendation.

   Recommendation 8. We recommend that USAID/Ghana require FHI to document the
   education of its subpartners on USAID branding and marking requirements and require
   adherence to these guidelines on a case-by-case basis.




                                                                                               12
EVALUATION OF MANAGEMENT
COMMENTS
In its comments on the draft report, USAID/Ghana agreed with all eight recommendations. Final
action has been taken on Recommendation 1 and management decisions have been reached
on Recommendations 2, 3, 4, 5, 6, 7, and 8. A detailed evaluation of management comments is
shown below.

In response to management comments about the scope of the audit, we would like to note that
while funding from the PEPFAR Gender Challenge Fund for FHI’s SHARPER project totaled
$180,000 and represents only 2 percent of the project’s $8 million annual budget, PEPFAR’s
gender strategic framework and ADS’s gender requirements are still applicable to the entire
$22.4 million project.

In response to the mission’s clarifications of facts, we revised the report to address the first and
second issues noted (with reference to page 6, paragraph 2, and page 8, paragraph 2, of the
draft report), but would like to point out an inconsistency in the first issue raised. The mission
stated that the target for FHI’s PEPFAR Gender Challenge Fund activities aimed at building
leadership skills for female PLHIV to address GBV was 5,000. However, the FY 2011 target for
this activity, as confirmed previously by both FHI and USAID was 1,000, but FHI actually
reached more than 5,000 by including other vulnerable subpopulations—MSM and FSW. The
mission notes that fully scaling up GBV activities to reach all vulnerable subpopulations was
never planned and is likely to cost more than existing funds will allow. However, it is also
important to note that FHI reached 4,000 more people than it had targeted for this activity, after
only 5 months of implementation, without having received additional funds. FHI also states in its
draft gender strategy that it plans to target most-at-risk-populations (FSW and MSM) and PLHIV
with GBV interventions and makes no reference to it being contingent upon the receipt of
additional funds. Thus, we believe that our recommendation to revise FHI’s targets for GBV
interventions to include all targeted subpopulations (PLHIV, FSW, and MSM) is not unrealistic or
contingent upon additional funding.

Recommendation 1. USAID/Ghana agreed with the recommendation and has revised the
targets for GBV interventions for FYs 2012 and 2013. FHI’s performance management plan has
been updated to include these revised targets. As a result, we consider that final action has
been taken on Recommendation 1.

Recommendation 2. USAID/Ghana agreed with the recommendation. FHI has prepared a
training plan and budget to improve subpartners’ understanding of gender, gender
mainstreaming, and GBV. The mission stated that it will review the plan, consider the financial
consequences, and decide on the final magnitude of the training. FHI will report on progress by
June 30, 2012. As a result, a management decision has been reached on Recommendation 2.

Recommendation 3. USAID/Ghana agreed with the recommendation. FHI has approved the
gender action plans that were considered doable and measurable for 19 subpartners. FHI is
working with the remaining subpartners to develop their action plans and will approve them by
May 31, 2012. FHI will provide ongoing support and will monitor subpartners’ implementation of
their plans. The consortium member Social Impact will review the implementation status of the


                                                                                                 13
gender action plans by October 31, 2012.        As a result, a management decision has been
reached for Recommendation 3.

Recommendation 4. USAID/Ghana agreed with the recommendation. FHI is working to
develop a more detailed GBV module for stakeholders, including peer educators, M-Friends,
and drop-in center staff. FHI expects to roll out these modules by June 30, 2012. The mission
stated that it will closely review and monitor the financial consequences of developing and
implementing these training modules. As a result, a management decision has been reached
for Recommendation 4.

Recommendation 5. USAID/Ghana agreed with the recommendation. FHI is developing a
contact guide for subpartners, drop-in center staff, and peer educators on the available support
services, including the M-Friend network. This guide will be made available to all sites by June
30, 2012, and FHI will revise and update it as changes are made. As a result, a management
decision has been reached for Recommendation 5.

Recommendation 6. USAID/Ghana agreed with the recommendation. The mission stated that
FHI is developing a plan and will report on the implementation by June 30, 2012. As a result, a
management decision has been reached for Recommendation 6.

Recommendation 7. USAID/Ghana agreed with the recommendation and will report on
progress by June 30, 2012. As a result, a management decision has been reached for
Recommendation 7.

Recommendation 8. USAID/Ghana agreed with the recommendation. FHI has developed a
plan to train all partners in branding and marking and to routinely monitor their efforts. FHI will
report on progress by June 30, 2012. The mission will review project branding and marking on
a case-by-case basis in coordination with the Embassy Political staff to ensure that the safety of
stakeholders is not compromised. As a result, a management decision has been reached for
Recommendation 8.




                                                                                                14
                                                                                            Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Dakar conducted this performance audit in accordance with
generally accepted government auditing standards.9 Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions in accordance with our audit objective. We believe the evidence
obtained provides that reasonable basis.

In planning and performing the audit, the audit team assessed management controls related to
management review, proper execution of transactions and events, and performance targets and
indicators. Specifically, we reviewed and evaluated the following:

•	     Project work plans
•	     Project agreements and subagreements
•	     USAID partner reports
•	     Certification required under the Federal Managers’ Financial Integrity Act of 1982
•	     Performance monitoring plans
•	     Project branding strategy and marking plan
•	     Mission and partner gender assessments and strategies

We interviewed key USAID/Ghana personnel, implementing partner and subpartner staff
members, and program beneficiaries. We conducted the audit at USAID/Ghana in Accra and
at implementing partner and subpartner offices and activity sites in Accra (Greater Accra
Region), Takoradi (Central Region), and Kumasi (Ashanti Region). Implementing partners
selected for audit included FHI and Marie Stopes International. FHI’s subpartners selected for
audit included Life Relief Foundation, Maritime Life Precious Foundation, and the West Africa
Program to Combat AIDS and STI. Audit fieldwork was conducted from January 23 to
February 10, 2012. The audit covered program activities that took place in FY 2011 and the
following indicators, which the mission and FHI deemed most indicative of gender-related
activities:

•	 Number of MSM reached with individual and/or small group-level interventions that are
   based on evidence and/or meet the minimum standards.

•	 Number of FSWs reached with individual and/or small group-level interventions that are
   based on evidence and/or meet the minimum standards.

•	 Number of health-care workers who successfully completed an in-service training program
   (including quality HIV counseling and testing, infection prevention, STIs syndromic treatment
   and management, and stigma and discrimination reduction) within the reporting period.

•	 Number of people reached by an individual, small group- or community-level intervention or
   service that explicitly addresses GBV and coercion related to HIV/AIDS.


9
     Government Auditing Standards, July 2007 Revision (GAO-07-731G).

                                                                                                   15
During FY 2011, USAID/Ghana obligated $10.5 million and disbursed $11 million for HIV/AIDS
activities,10 of which $7.6 million was obligated and $5.6 million was disbursed to FHI’s
SHARPER project.

Methodology
To answer the audit objective, we evaluated the mission’s initiatives to address gender in its
HIV/AIDS programs and the complete program cycle for the gender-related activities selected
for audit: project design, implementation, monitoring and evaluation. We also looked at the
public’s awareness of U.S. efforts for the audited activities because we considered branding and
recognition as the final steps to all foreign assistance efforts. We accomplished this by
reviewing project work plans, agreements and subagreements, partner reports, annual
certification required by the Federal Managers’ Financial Integrity Act of 1982, performance
monitoring plans, mission and partner gender assessments and strategies, and the branding
strategy and marking plan.

Because Marie Stopes International’s kayayei project was in the early stages of implementation,
the audit team limited work to an assessment of the project’s design and the organization’s
plans to integrate gender into its project activities. For FHI’s SHARPER project, the audit team
reviewed interventions that targeted people living with HIV/AIDS and the most-at-risk-
populations for contracting HIV—MSM and FSWs—because these groups are vulnerable to
GBV. We also examined FHI’s GBV interventions and activities to train health-care workers in
stigma and discrimination reduction.

We performed site visits in the Greater Accra, Central, and Ashanti Regions. During these
visits, we met with officials from implementing partners and subpartners, reviewed program
documentation, visited drop-in centers sponsored by USAID, interviewed individuals who were
conducting activities, and interviewed program beneficiaries. The sample of sites visited
consisted of activities that were (1) in progress during the time of our fieldwork, (2) located in
areas where key program activities were being implemented, and (3) representative of the
activities being implemented. The results and overall conclusions related to this testing were
limited to the items tested and cannot be projected to the entire audit universe. However, we
believe that our work provides a reasonable basis for our conclusions.




10
     Funds disbursed for FY 2011 were mostly obligated before September 30, 2010.


                                                                                               16
                                                                                     Appendix II



MANAGEMENT COMMENTS 



TO:           Gerard Custer, Regional Inspector General

FROM:         Peter Argo, Acting Mission Director

DATE:         March 29, 2012

SUBJECT:      Audit of USAID/Ghana’s Efforts for Integrating Gender in HIV/AIDS Activities
              (Report No. 7-641-12-00X-P)


This memorandum transmits USAID/Ghana’s management responses on the subject audit
report (Report No Report No. 7-641-12-00X-P) regarding USAID/Ghana’s efforts for integrating
gender in HIV/AIDS activities, dated March 9, 2012.

The Mission appreciates the sincere effort the audit team made to understand the content and
the dynamics of the HIV/AIDS programs and their willingness to discuss and share preliminary
findings and draft recommendations. The exercise has provided USAID/Ghana with important
lessons that will result in significant program improvements. We greatly appreciate this
opportunity to learn and share experiences to improve our HIV/AIDS programs.

This memorandum (1) makes observations on the timing of the audit and the important financial
implications of some of the recommendations; (2) discusses instances in which the audit team
perceives certain program elements differently from the USAID/Ghana HIV/AIDS Team and its
implementers; and (3) identifies corrective actions already taken and follow-up actions the
Mission has outlined to address some of the recommendations.

General comment of the scope of the audit.

USAID/Ghana received funding from the Gender Challenge Fund, which arrived at the Mission
on June 7, 2011, and totaled $480,000 (significantly less than originally requested). The amount
was intended for use by two projects: $300,000 for a Kayayei program implemented by Marie
Stopes International; and $180,000 for the SHARPER project, implemented by FHI 360, to
develop female PLHIV leadership skills. This $180,000 represents about 2% of the SHARPER
project’s $8 million annual budget.

The audit took place in January/February 2012 and examined the two activities funded by the
Gender Challenge Fund, as well as other activities that FHI 360 was piloting at the time of the
audit. While the Mission agrees whole-heartedly with the spirit of the audit recommendations,
one concern is that some sweeping recommendations offered in the report might have been
made too early in the development of the USAID/Ghana’s gender programs and, when carried

                                                                                              17
out in full, might have substantial financial implications beyond the capacity of the HIV/AIDS
program.

Clarifications of facts
The Mission would like to document the following inconsistencies in the audit report:

•      Page 6, paragraph 2: “In FY 2011, FHI360 reportedly reached over 57,000 PLHIV,
FSW, MSM and Non Paying Partners with HIV support services, but the data showed that little
over 5,000 people benefited from the GBV interventions”….. “there is a missed opportunity to
work for reaching all vulnerable populations with important GBV interventions” (same page,
paragraph 3)

Comment: The target of 5,000 people was set for the work carried out with Gender Challenge
Funds. In addition to the activities funded by the gender-specific funding for which the target
was 5,000 people, SHARPER also piloted GBV work with most-at-risk populations, starting in
May 2011. The Mission did neglect to set a target for that pilot. However, fully scaling up these
pilot activities towards reaching all vulnerable populations was never planned, and is likely to
cost more than existing funds will allow.

•       Page 8, paragraph 2: “Various people at FHI360 signed off on the gender action plans,
including the Regional Program Officer, the Capacity Building Officer and the in-country Gender
Consultant. This suggests that insufficient attention or importance was given to this task.”

Comment: Also because of the fact that the audit was conducted early on in the process of
integrating gender into Ghana’s PEPFAR programs, the three gender plans the auditors
reviewed (Maritime; LRF and WAPCAS Kumasi) were works in progress at the time of review,
rather than approved final versions. At the time of the audit, the capacity building officer and the
in-country gender consultant were reviewing the reports to provide feedback to implementing
partners. They had not signed off on these specific plans at that point in time. The same
process was finalized for some other NGOs, and resulted in much higher quality plans, which
were then signed off on by the relevant officers.

•      Page 12, paragraph 2: the draft report indicates that there is a possible risk of fraud
because “some peer educators are financially compensated based on the number of new
beneficiaries they are able to reach”

Comment: FHI360 has not withheld any funds from peer educators as a result of a lower than
expected number of beneficiaries reached since these are “soft” targets. The same counts for
the implementing partners, when a milestone on beneficiaries reached was not fully achieved.
Peer educators who do a good job with successful peer-accompanied referrals (verifiable
referrals to a service) do on occasion receive a merit award. USAID agrees, however, as the
draft report suggests, that a possible risk of fraud can be mitigated by correctly using the unique
identifier code and a centralized data base. (See the response to recommendation 7).


Management responses to the recommendations

Recommendation 1: We recommend that USAID/Ghana work with Family Health International
to review and revise its targets, in writing, for gender-based violence interventions.

Management Response: USAID/Ghana agrees with this recommendation, and has addressed

                                                                                                  18
it together with FHI360. The revised targets for the gender-based violence indicator “number of
people reached by an individual, small group or community intervention or service that explicitly
addresses gender-based violence and coercion related to HIV/AIDS” are as follows:

2012   -       16,250
2013   -       17,000

The updated PMP is reproduced as attachment 1.

The Mission and FHI 360 will closely monitor the cost implications of achieving these targets,
which may be considerable.

Recommendation 2: We recommend that USAID/Ghana require Family Health International to
perform and document additional training for sub-partners on gender, gender mainstreaming
and gender-based violence, and develop and implement a plan to improve sub-partners'
downstream training.

Management Response: USAID/Ghana agrees with this recommendation. FHI 360 has
prepared a training plan with budget and the Mission will review the plan, consider financial
consequences and decide on the final magnitude of trainings. FHI360 will report on progress in
June 2012.

Recommendation 3: We recommend that USAID/Ghana require Family Health International to
work with its sub-partners to develop and implement gender action plans that are measurable
and actionable.

Management Response: USAID/Ghana agrees with this recommendation. FHI 360 has
approved all 19 gender action plans which are measurable and actionable. The Mission will
review these plans for their financial feasibility.

Recommendation 4: Require Family Health International to develop and implement a plan to
reach all beneficiaries that visit the drop-in centers with gender-based violence interventions.

Management Response: USAID/Ghana agrees with this recommendation. In April 2012, FHI
360 will work with a GBV expert who will assist FHI 360 in developing a more detailed GBV
module for peer educators, for M-Friends and M-Watchers and for DIC and GHS health care
workers affiliated with the project. These three tailored training modules will be rolled out in May
and June of this year. Again, we will closely review and monitor the financial consequences.

Recommendation 5: We recommend that USAID/Ghana require Family Health International to
develop and implement a plan to make sure that sub-partners are aware of available support
services, including the M-friends network, and that sub-partners are informed when there are
changes to these services.

Management Response: USAID/Ghana agrees with this recommendation. FHI 360 is
developing a M-Friends/Watchers contact guide for all peer educators, DIC staff and partners.
This will be made available to all sites by June 2012 once all M-Friends have been confirmed.
FHI 360 will revise and update the list when any changes are made.

Recommendation 6: Require Family Health International to develop and implement a plan to
train sub-partners on how to properly define, measure, and report on the indicators.

                                                                                                   19
Management Response: USAID/Ghana agrees with this recommendation. FHI360 is
developing a plan and will report on the implementation by June 2012.

Recommendation 7: We recommend that USAID/Ghana require Family Health International to
distribute updated data reporting tools to sub-partners, document the training of sub-partners on
the proper use of these tools and require their utilization, and create a centralized database.

Management Response: USAID/Ghana agrees with this recommendation. The Mission will
report on progress in June 2012.

Recommendation 8: We recommend that USAID/Ghana require Family Health International to
document the education of its sub-partners on USAID branding and marking requirements and
require adherence to these guidelines on a case-by-case basis.

Management Response: USAID/Ghana agrees with this recommendation. FHI360 has
developed a plan to train all partners in branding and routinely monitor the branding and
marking of goods and premises. They will report on progress in June 2012. However, the
Mission will review branding and marking on a case by case basis, in coordination with
Embassy Political staff. The safety of implementing partners, their staff, and volunteers will be
the Mission’s primary concern. For example, drop-in centers, by their very nature, are not
suitable for branding.




                                                                                                    20
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
